                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                                   Inspection of the
                                            Office to Monitor and Combat
                                                Trafficking in Persons

                                               Report Number ISP-I-12-37, June 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                   PURPOSE, SCOPE, AND METHODOLOGY
                          OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instances of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

        At the time of this inspection, OIG was engaged in monitoring compliance of the Audit of
the Bureau of East Asian and Pacific Affairs Compliance with Trafficking in Persons
Requirements (AUD/IP-12-02), dated October 2011. The OIG Office of Audits was also engaged
in a compliance followup review of the Performance Evaluation of Department of State
Contracts to Assess the Risk of Trafficking in Persons Violations in Four States in the
Cooperation Council for the Arab States of the Gulf (MERO-I-11-06), dated January 2011. OIG,
along with other agencies, was asked to testify in November 2011 before the House Committee
on Government Reform on issues raised surrounding U.S. Government contracting and the
incidence of modern slavery. This inspection has focused solely on the policy office of the
Office to Monitor and Combat Trafficking in Persons, and its antitrafficking policy function
within the Department, including grants awards and management, and the internal leadership and
management of the office itself.




                                          i
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


METHODOLOGY

        In conducting this inspection, the inspectors reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                          ii
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                          iii
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                                  Table of Contents

   Key Judgments                                               1
   Context                                                     3
   Executive Direction                                         5
     Internal Management                                       5
     Engagement with Other Department Bureaus and Embassies    6
     Revitalizing the Interagency Process                      6
   Policy and Program Implementation                           7
     Interagency and Multilateral Affairs                      7
     Reports and Political Affairs                             7
     The Trafficking-in-Persons Report – Comprehension         9
     The Trafficking-in-Persons Report – Process              10
     The Trafficking-in-Persons Report – Other Issues         12
     International Programs                                   14
     Innovative Practice: Grants Review Process               16
     Public Engagement                                        19
   Resource Management                                        23
     Financial and Human Resources                            23
     Staffing                                                 23
     Strategic Planning                                       24
     Resource Management and Planning Team                    24
     Equal Employment Opportunity                             25
     Space                                                    28
     Information Management                                   28
   Management Controls                                        29
     Performance Appraisals                                   29
     Purchase Cards                                           30
(b) (5)                                                       31
                                                              31
                                                              32
                                                              33
   List of Formal Recommendations                             34
   List of Informal Recommendations                           38
   Principal Officials                                        39
   Acronyms                                                   40




                                         iv
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Office to Monitor and Combat Trafficking in Persons (J/TIP) has led U.S.
       Government efforts to significantly raise antitrafficking visibility worldwide and to help
       countries monitor and combat modern slavery. The J/TIP staff is deeply committed to its
       mission.

   •   The tier ranking system of the Trafficking Victims Protection Act (TVPA) of 2000, as
       amended, is not well understood outside of J/TIP and implementation of the law lacks
       flexibility, which contributes to differences in interpretation among posts, regional
       bureaus, and J/TIP, ( b) (5)


   •   Although J/TIP’s working relations within the Department of State (Department) have
       improved over the past 2 years, thanks to efforts by senior Department leadership,
       regional bureaus, and J/TIP, fundamental tensions remain. These tensions hinder
       Department collaboration on antitrafficking goals and contribute to poor resource
       allocation.

   •   In executing its interagency coordination mandate, J/TIP has energized and provided
       needed direction to the interagency Senior Policy Operating Group (SPOG) on trafficking
       in persons (TIP). It has also led interagency efforts to identify broad antitrafficking
       objectives and forged interagency collaboration to improve training, awareness, and
       coordination.

   •   U.S. grants funding, mostly to assist poor countries making insufficient antitrafficking
       progress, has been cut significantly at a time when U.S. leadership continues to elevate
       worldwide trafficking awareness.

   •   J/TIP has revamped its annual competitive grants review and selection process effectively
       by linking awards to global antitrafficking assistance priorities and streamlining the
       process, resulting in an innovative practice worthy of adoption elsewhere.

   •   J/TIP’s current staffing complement allocated to its reports and political affairs (RPA)
       section is insufficient to accomplish its expanded mission under successive TVPA
       reauthorizations, especially during the annual report drafting seasons. A combination of
       management and process changes is necessary to address this issue.

   •   In the past 2 years, J/TIP’s rapid staffing increase, reorganization, and staff turnover have
       raised leadership and management challenges such as internal communications, work
       prioritization, resource planning, and training.

        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where OIG did not identify problems that need to be corrected.

                                          1
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

The inspection took place in Washington, DC, between January 9 and February 24, 2012.
(b) (6)




                                         2
                            SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Context
         In 2000, Congress mandated the establishment of J/TIP in the TVPA, a comprehensive
statute that lays the foundation for wide-ranging U.S. efforts against trafficking. 1 An Executive
Order signed in early 2002 and a National Security Presidential Directive in late 2002 provided
additional authorities, and the reauthorizations in 2003, 2006, and 2008 modified and
strengthened the original act. 2 J/TIP’s major responsibilities include:

    •   providing staff support for the President’s Interagency Task Force (PITF) to Monitor and
        Combat Trafficking in Persons chaired by the Secretary of State;
    •   producing within the Department the annual report to Congress on compliance of foreign
        governments with minimum standards for elimination of human trafficking;
    •   assessing and ranking countries according to their progress in strengthening their
        antitrafficking regimes, particularly with respect to prosecution and protection;
    •   coordinating within the Department and other agencies, assistance to foreign
        governments in their antitrafficking activities; and
    •   helping institutionalize whole-of-government and whole-of-agency efforts to combat
        domestic and international trafficking and helping expand interagency coordination, in
        particular in the areas of grant-making, research and data, and public affairs.

The Director of the office, who has the title Ambassador at Large, also chairs the interagency
SPOG established under the Act. 3

        J/TIP reached its 10-year anniversary not long before this inspection, which is its second
inspection since its creation. Since 2001, successive reauthorizations have added to J/TIP’s
responsibilities to execute the letter and intent of the law. Moreover, J/TIP’s success over the
past decade to lead Department efforts to raise international awareness and to oblige countries to
strengthen their antitrafficking regimes have increased the quantity and diversity of activities that
J/TIP and U.S. embassies together must monitor and assess. Consequently, J/TIP staff has grown
from 5 in 2001 to 52 at the time of this inspection.

       The Director of the J/TIP office reports to the Under Secretary for Civilian Security,
Democracy, and Human Rights. The Secretary of State, who brings her own personal
commitment to helping advance antitrafficking objectives globally, looks to J/TIP as the
principal vehicle for advancing antitrafficking policy and awareness.



1
  Pub. L. 106-386, Div. A, Oct. 28, 2000, 114 Stat., 1466, codified at Title 22, U.S. Code, secs. 7101-7112.
2
  Ex. Order No. 13257, President’s Interagency Task Force to Monitor and Combat Trafficking in Persons, February
13, 2002, 67 F.R. 7259, as amended; National Security Presidential Directive NSPD-22 (December 16, 2002); Pub.
L. 108-193, Dec. 19, 2003, 117 Stat. 2875; Pub. L. 109-164, Jan. 10, 2006, 119 Stat. 3558; Pub. L. 110-457, Dec.
23, 2008, 122 Stat. 5044
3
  The SPOG member agencies consist of the Departments of State, Defense, Justice, Labor, Health and Human
Services, Education, and Homeland Security; the Office of Management and Budget; the Office of the Director of
National Intelligence; and the Agency for International Development. Invited agencies consist of the Departments
of Interior, Agriculture, and Transportation, the Federal Bureau of Investigation, and the U.S. Equal Employment
Opportunity Commission.
                                               3
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The Department’s 10-year effort to advance antitrafficking policy has catapulted the
issues to a high profile in U.S. bilateral engagement. J/TIP is responsible for producing the
annual public TIP report, as mandated in the TVPA, in close consultation with overseas missions
and regional bureaus. The yearly assessment, by law, includes a comparative ranking system for
countries based upon the annual report data. Successive J/TIP ambassadors at large and their
staffs have followed strictly what the Department has determined the TVPA intended in
assessing a country’s standing.

         The TVPA mandates the use of U.S. sanctions to encourage countries to make yearly
progress to strengthen their antitrafficking regimes. Many countries have responded
constructively to U.S. Government-determined deficiencies. Yet some countries have resented
being publicly low-ranked, arguing that the U.S. Government’s annual assessment is flawed and
its tier-ranking system subjective. Some have even acted on this pique and threatened counter
actions on issues of bilateral national security, trade, and environmental issues of importance to
the United States. A few countries simply have refused to consider engaging with the United
States on trafficking discussions because they view it as a domestic matter. U.S. embassies
charged with advancing a wide range of bilateral objectives, including antitrafficking
cooperation, can be caught in the middle.

        As a consequence of the TVPA, J/TIP is on one side charged with doing its best to arrive
at an objective yearly public assessment and ranking solely of other countries’ antitrafficking
posture. On the other side are U.S. embassies and their respective regional bureaus, responsible
for advancing the full range of bilateral issues, including antitrafficking goals. Since the annual
assessment can initially be subject to differing interpretations with respect to antitrafficking
progress, bureaus and posts have found it necessary to invest heavily in acquiring trafficking
expertise, separate from that of J/TIP, to argue on the merits if they do not agree with J/TIP’s
conclusions and rankings. Congress continues to stiffen the TIP report’s requirements, not only
in the periodic reauthorization acts, but also in appropriations acts. Consequently, the potential
impact on certain bilateral relationships promises to worsen as automatic tier downgrading
mandated by the 2008 TVPA reauthorization forces rankings mechanistically lower.

       It is outside the scope of this inspection to recommend legal steps to address this
problem. (b) (5)



Internally, J/TIP and the regional bureaus must do their best together to overcome this
fundamental tension as they carry out their respective responsibilities.




                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
       J/TIP is led by the Director, a principal deputy director, and a second deputy director.
The senior management team includes four senior coordinators responsible for the four areas of
J/TIP activity: reports and political affairs, international programs (grants), public engagement,
and planning and resource management. The Director has responsibility for both policy direction
and overall management of the office; the two deputies supervise two sections each. The
principal deputy is responsible for day-to-day management and rates the second deputy.

        The current Director is a presidential appointee recognized as an expert in antitrafficking
policy. He has prosecuted traffickers for the Department of Justice and served as counsel to the
House Committee on the Judiciary with jurisdiction over antitrafficking legislation. He enjoys
widespread credibility in foreign capitals, around Washington, and within the J/TIP staff. His
principal deputy is a career Civil Service employee with considerable Department experience,
including in the Foreign Service.

      The OIG team examined three general areas of executive direction: J/TIP’s internal
management, its engagement with other Department bureaus and overseas posts, and its
management of the interagency process as chair of the SPOG.

Internal Management

         J/TIP has doubled its staff over the past 6 years and increased it by more than a quarter in
the past 2 years. The earlier management structure, which centered on the Director for all J/TIP
activities, was inadequate. J/TIP’s front office restructured the office in September 2011, by
creating a new deputy office director position and four senior coordinator positions below the
two deputy office directors. This new structure appears well suited to the expanded office.

       The Director has provided broad leadership direction to the office since his arrival in May
2009 but has left most operational management issues to his principal deputy. Despite the
reorganization, internal communication from the front office down to individual section officers
has been a chronic source of staff frustration. (b) (5)


                                Both the Director and the principal deputy expressed a desire to
improve office communication and are examining mechanisms, such as revamping staff
meetings and regular debriefing sessions, to address the problem. The Director has already begun
taking steps to ensure that individual officers become familiar with his strategic vision, as set
forth in the FY 2013 Bureau Strategic and Resource Plan.

       Despite the staff growth and reorganization, the OIG team found that longstanding
problems of section workload, particularly in the RPA section, have persisted. The RPA staff has
grown modestly since the last inspection, but it still has not kept pace with growth in workload
nor heightened tempo, which suggests that the measures taken have not adequately addressed the
problem.


                                           5
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

    Recommendation 1: The Office to Monitor and Combat Trafficking in Persons should develop
    a staffing plan to reapportion individual reports and political affairs officer responsibilities
    among the personnel of the office in a manner to prevent individual officer burn out and to
    prevent untimely staff turnover in the reports and political affairs section. (Action: J/TIP)

    Engagement with Other Department Bureaus and Embassies

             J/TIP’s current collaboration with its regional bureau counterparts and embassies in the
    field is generally collegial yet reflects in several instances long-standing, underlying strain over
    how best to advance TVPA-mandated antitrafficking objectives alongside other high-priority
    foreign relations objectives. Much of this strain is a byproduct of the annual TIP process of
    producing tier rankings.
(b) (5)




            There have been specific procedural actions taken in the past 2 years by Department
    principals, regional bureaus, and J/TIP that have improved working relations between J/TIP and
    its other Department counterparts. These actions include operational changes with regard to
    J/TIP’s annual TIP report drafting to improve transparency and to share real-time TIP data with
    posts. J/TIP has also conducted well-received TIP reporting officer conferences in the field.
    Bureaus, embassies, and J/TIP agree that these steps have improved collaboration.

            J/TIP leadership welcomes improvements in the tone and substance of its relations with
    bureaus and embassies as long as these do not undermine yearly objective assessment and
    rankings required under the law. The leadership asserts that J/TIP is the only office capable of
    producing an independent, objective assessment, and the Department has, as of the date of the
    inspection, endorsed J/TIP’s lead role. Without speaking to the merits of that assertion, this
    inspection concludes that the Department would benefit from adopting measures described
    elsewhere in this report that seek to strengthen overall collaboration, to integrate J/TIP more
    fully into the Department, and to broaden understanding of the Department’s antitrafficking
    objectives among its employees.

    Revitalizing the Interagency Process

            The Director, in executing his interagency coordination mandate, has energized and
    provided needed direction to the SPOG. He has led interagency efforts described in the following
    section of this report to identify broad antitrafficking objectives and forged interagency
    collaboration to improve training, awareness, and coordination.
                                               6
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Interagency and Multilateral Affairs

         J/TIP’s leadership has steadily helped the SPOG evolve into an improved interagency
coordinating body, incorporating 10 cabinet-level agencies and 5 other agencies invited to
participate. J/TIP has worked successfully to ensure that agency representation is at an
appropriately senior policy level. Over the past 2 years, the SPOG has been an important impetus
to help the Department of Homeland Security launch a much-anticipated interagency public
session on U.S. Government efforts to provide victim services under the TVPA. J/TIP managed
inclusion of the United States in the annual TIP report—a priority mandated by the Secretary of
State—in cooperation with SPOG agencies directly responsible for domestic antitrafficking
activities. Under J/TIP management, the SPOG has operated a clearing house for international
activities and grants to prevent redundancy and to improve interagency awareness.

        The SPOG also serves as secretariat for the annual principals’ meeting under the PITF.
J/TIP has sought to use this meeting, chaired by the Secretary, as a key vehicle to build TIP
interagency awareness and commitment. During this inspection, J/TIP staff was assembling the
2011 annual compilation of all agency activities and achievements under 10 broad strategic
objectives for public issuance. Participation at the agency principal level in the PITF has
reinforced the importance attached by the U.S. Government and encouraged other governments
to take concerted action.

        Finally, J/TIP has steadily increased its engagement in multilateral fora such as the
Organization for Security and Cooperation in Europe, the Organization of American States, and
in the various UN agencies to promote strengthening antitrafficking activities and to increase
awareness. J/TIP’s leadership has overseen this work effectively and with diligence.

Reports and Political Affairs

         J/TIP’s RPA section produces the annual TIP report draft and initially ranks, for
Department consideration, all assessed countries into one of four tier categories that measure
each country’s efforts that year toward combating TIP activities. RPA also engages governments
throughout the year through diplomatic outreach and training to help them improve their
antitrafficking regimes. After 10 years of publication, the TIP report has gained wide credibility
for its thoroughness and is recognized as the definitive work by the antitrafficking community on
the status of antitrafficking efforts and a catalyst for change globally.

        There is an inherent tension in the Department because the six regional bureaus, which
manage broad bilateral relationships, are often at odds with the functional bureaus’ and offices’
narrow-issue policies. These tensions are reflected in constant negotiations and professional
resolutions that are a feature of the U.S. Government and a source of its strength. During the
inspection, the regional and other bureaus asserted that the TIP issue was a significantly more
contentious policy-formulation process than is the norm. As a result, some regional bureaus
assert spending as many resources on TIP issues as on all other global issues combined.


                                           7
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

        There are three contributing factors to the tension. The first is the TVPA itself, which
explicitly mandates significant penalties for countries that do not comply with its provisions. The
TVPA also requires annual progress that does not credit past achievements. The year after the
previous OIG inspection (2006), the average tier ranking was 2.01. In 2011, the average ranking
for the 145 countries that had been ranked all 6 years since was the same, 2.01. 4

        The second factor is that modern slavery and trafficking have been poorly understood and
often exist out of sight. Among rank-and-file diplomats, there is still a lack of awareness about
modern slavery, TIP, and the requirements of the TVPA. This lack of awareness has resulted in
actions by embassies and regional bureaus that have exacerbated their relationships with J/TIP.
The bureaus believe J/TIP lacks the country context of embassy and desk officers.

       Finally, there is an inherent difference in perspective between J/TIP and the regional
bureaus, which stems from J/TIP’s mandated responsibility to implement the TVPA and the
regional bureaus’ responsibilities for overall bilateral relations. (b) (5)




        In the past 2 years, the Under Secretary of State for Civilian Security, Democracy, and
Human Rights has led an initiative that has significantly improved the TIP reports and tier
placement processes. 5 The first draft of the annual TIP report shared with regional bureaus now
uses footnote references to identify the sources of information. SharePoint software is also used
to make country-specific information accessible. One result of these efforts is that the number of
tier-ranking disputes between the regional bureaus and J/TIP declined from 46 percent of all
countries ranked in 2006 to 22 percent of those ranked in 2011.

        Within J/TIP's RPA section, the deputy senior coordinator has helped to improve
relations with the rest of the Department through better communication and professional
engagement. There is widespread acknowledgment that the deputy senior coordinator has made a
difference in ameliorating the atmospherics on TIP issues. In addition, bureaus commend several
individual RPA personnel for transparency and communication with their regional counterparts.




4
  The calculation is a simple arithmetic average assigning Tier 1 = 1, Tier 2 = 2, Tier 2 Watch List = 2.5, and Tier 3
= 3. The 145 countries counted were the only ones that remained the same during the 6 years measured, as some
dropped off (e.g. Tunisia), some were split (e.g. Serbia and Montenegro), and others were added (e.g. Solomon
Islands).
5
 The Under Secretary for Civilian Security, Democracy, and Human Rights was formerly known as the Under
Secretary for Democracy and Global Affairs, also known as “G,” but now as “J.”
                                                8
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        Two areas bear special focus: increasing TIP comprehension and TVPA requirements
within the Department and developing procedures that will promote a better working relationship
on TIP issues.

The Trafficking-in-Persons Report – Comprehension

        The Resource Management section of this report discusses the value of increasing
Foreign Service officer participation in J/TIP. Nowhere is that more important than in the RPA
section. This report makes a recommendation that two RPA positions be converted to Foreign
Service.

        Aides to senior Department leaders indicated to the OIG team that they would value
being included on a regular basis in important internal J/TIP meetings or broader briefings.
During this inspection, J/TIP, on its own volition, extended an open invitation to staff of the
Under Secretary for Civilian Security, Democracy, and Human Rights to attend senior staff
meetings. J/TIP might also consider, on occasion, scheduling its senior staff meeting in the Harry
S Truman building to facilitate selective non-J/TIP participation.

       Informal Recommendation 1: The Office to Monitor and Combat Trafficking in Persons
       should regularly invite senior Department staff officers to informal briefings and seminal
       meetings and periodically schedule these briefings and meetings in the Harry S Truman
       building.

        U.S. embassies staffs’ lack of understanding of TIP complexity contributes to poor
collaboration. J/TIP has increased travel and used digital videoconferencing to connect with
distant posts. Moreover, J/TIP has held successful TIP reporting conferences in all but one
geographical region. One effort with that region was cancelled due to a Department-wide ban on
regional conferences for budgetary reasons. A conference in that region would help to spread
TIP understanding to key reporting officers.

       Informal Recommendation 2: The Office to Monitor and Combat Trafficking in Persons
       should hold regular trafficking-in-persons reporting conferences, merging them with
       other more general reporting officer conferences in regional bureaus where the varied
       responsibilities of the reporting officers so dictate.

        Given the growing importance of TIP issues for U.S. diplomacy, other Department
officers, including embassy senior managers, who do not have time for lengthy training or
conference participation can benefit from TIP training. The Bureau of Consular Affairs
developed a distance learning course (PC 406) on the consular role in combating TIP activities
and in the October 2010 consular issues cable, encouraged all consular employees to take it.
More recently, an OIG report, Audit of Bureau of East Asian and Pacific Affairs Compliance
with Trafficking in Persons Requirements (Report Number AUD/IP-12-02, October 2011), found
that two-thirds of consular personnel surveyed had not been trained. The audit recommended that
J/TIP, in consultation with the Foreign Service Institute and the Bureau of Human Resources,
expand TIP training to all Department employees. In the following recommendation, the
recipients of the training are only those who are responsible for TIP issues both at home and
overseas.
                                          9
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Recommendation 2: The Office to Monitor and Combat Trafficking in Persons, in coordination
with the Foreign Service Institute, should create a distance learning course on trafficking-in-
persons issues and the Department of State’s obligations under the Trafficking Victims
Protection Act, as amended, targeted for embassy reporting officers, regional bureaus'
trafficking-in-persons coordinators, and their superiors. (Action: J/TIP, in coordination with
FSI)

        Washington briefings for chiefs of missions and their deputies do not always include TIP
issues, even though all countries are now covered in the annual TIP report. Considering the
increasing resources devoted by the Department to this issue and the potential for bilateral
friction that it represents, all chiefs of mission and deputy chiefs of mission need to understand
TIP—the TVPA, the yearly report, the impact of tier rankings for their countries and the value of
bilateral engagement.

Recommendation 3: The Office to Monitor and Combat Trafficking in Persons, in coordination
with the Bureaus of Human Resources, African Affairs, European and Eurasian Affairs, East
Asian and Pacific Affairs, Near Eastern Affairs, South and Central Asian Affairs, and Western
Hemisphere Affairs, should include specific trafficking-in-persons briefings for all ambassadors
and deputy chiefs of mission before they depart for their posts. (Action: J/TIP, in coordination
with DGHR, AF, EUR, EAP, NEA,SCA, and WHA)

The Trafficking-in-Persons Report – Process

         The fact that the TIP report is closely tied to the language of the TVPA and because the
tier ranking could have bilateral repercussions, there is a premium on knowing exactly how to
apply the TVPA. In 2007, J/TIP promulgated helpful implementation guidelines for the TVPA
in a telegram (2007 State 150188). Even though the TVPA was substantially amended in the
2008 reauthorization, this guidance has not been updated or reissued, in part, because it took
almost a year to clear it. Having more up-to-date periodic guidance will improve comprehension
and reduce misunderstandings by TIP reporting officers and chiefs of mission in the field.

Recommendation 4: The Office to Monitor and Combat Trafficking in Persons should update
the implementation guidelines for the minimum standards to reflect the latest language of the
Trafficking Victims Protection Act and plan to reissue the updated guidelines annually. (Action:
J/TIP)

        J/TIP sends a worldwide telegram each December to embassies to request TIP data for
use in the TIP report. Concurrently, J/TIP contacts organizations outside of the U.S. Government
requesting the same information. Between mid-February and the end of March, J/TIP drafts TIP
country summaries and proposed tier rankings drawing on these embassy and non-U.S.
Government submissions. Embassies eventually see the non-U.S. Government submissions, but
often not until they have already submitted their data inputs to J/TIP. If embassies are able to
view the other data before they submit their cable, they can use it to inform their own reports and
clarify potential differences early in the process.


                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 5: The Office to Monitor and Combat Trafficking in Persons should
implement a plan to gather non-U.S. Government trafficking-in-persons data on countries and
share it with the appropriate U.S. embassy well before the due date of the embassy’s submission
of the Trafficking-In-Persons report data call. (Action: J/TIP)

         The TIP report is drafted in February and March each year and then cleared by the Office
of the Legal Adviser and J/TIP’s Director in early to mid-April. It is only at this point that
country narratives are shared with regional bureaus and embassies and a process of resolving
disagreements begins. Regional bureaus and embassies are sometimes surprised at information in
the report that does not reflect their understanding of events in their countries. With a statutory
deadline of June 1 to publish the TIP report, the rush to resolve misunderstandings and
disagreements increases tensions. The OIG team believes that, if J/TIP were to share the draft
reports earlier, it would allow more time for embassies to resolve potential areas of
misunderstanding or inaccuracy. J/TIP informed the OIG team that it intends in the 2012 cycle to
begin marking their first (fully cleared) version of the report as a “draft.” The OIG team endorses
this initiative.

Recommendation 6: The Office to Monitor and Combat Trafficking in Persons should revise
current practices for drafting the Trafficking-In-Persons report in order to share a draft of the
country narrative as early as practical with the concerned U.S. embassy and regional bureau.
(Action: J/TIP)

        The Department produces many mandated reports, but the TIP report is exceptional in
that the initial draft is written in Washington, not in the field. (b) (5)




                                                               TIP report drafting responsibility
was the subject of past decision memoranda early on after the formation of the TIP office and
even in much more recent informal discussions. Ultimately, the Department has chosen to leave
drafting responsibility with J/TIP.

        The OIG team appreciates the careful examination that the Department has undertaken
regarding drafting responsibilities. However, the OIG team suggests that the Department
consider a modest embassy drafting pilot program. A pilot program, under J/TIP direction, could
evaluate an embassy’s competence in drafting consistent with TVPA strictures, offer alternatives
to J/TIP to have selected embassies drafting, alleviate J/TIP workload, and strengthen a
collaborative spirit with regional bureaus.

        The comprehensive and definitive TIP report has understandably grown in size and
length, now covering 184 countries, addressing antitrafficking issues, and praising individual and
nongovernmental organization contributions. While the overall report is impressive, publishing
the 336 pages of country narratives is wasteful. Executive Order 13589 encouraged agencies to
limit the publication and printing of hard copy documents and to presume that information
should be provided in an electronic form. The 2011 TIP report was published in two versions,
                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

one with all the country narratives (412 pages) and another with just the introductory materials
(72 pages). The short version is sufficient for hard copies.

Recommendation 7: The Office to Monitor and Combat Trafficking in Persons should cease
publishing in hard copy the country narratives of the Trafficking-in-Persons report. (Action:
J/TIP)

The Trafficking-in-Persons Report – Other Issues

Action Plans

        The TIP report contains a list of recommendations for each country. Because the TVPA
requires appreciable progress each year to maintain a ranking, and because countries on the Tier
2 Watch List for more than 2 consecutive years must create a written plan to avoid being
downgraded to Tier 3, the recommendations can be a blueprint to tier improvement. While J/TIP
has produced action plans to share with foreign governments based on its TIP report
recommendations, this task could be performed by embassy staff, in close consultation with
J/TIP, to facilitate greater ownership of the process in their countries and to focus embassy
attention on TIP issues midway through the TIP report cycle.

Recommendation 8: The Office to Monitor and Combat Trafficking in Persons, in coordination
with the Bureaus of African Affairs, European and Eurasian Affairs, East Asian and Pacific
Affairs, Near Eastern Affairs, South and Central Asian Affairs, and Western Hemisphere Affairs,
should task U.S. embassies to develop action plans for their countries drawing from Trafficking-
in-Persons report narrative recommendations. (Action: J/TIP, in coordination with AF, EUR,
EAP, NEA, SCA, and WHA)

Interim Reports

        The 2003 reauthorization of the TVPA created a special watch list and tasked the
Secretary of State with reporting by February 1 of each year, an assessment of the interim
progress of the watch list countries since the previous TIP report. In the past, J/TIP has drafted
the interim reports, which normally are comprised of a few paragraphs. Having the embassies
draft the interim reports, in close consultation with J/TIP, would strengthen their involvement in
TIP issues, and help embassies move smoothly from the TIP report to the action plan to the next
TIP report cycle.

Recommendation 9: The Office to Monitor and Combat Trafficking in Persons, in coordination
with the Bureaus of African Affairs, European and Eurasian Affairs, East Asian and Pacific
Affairs, Near Eastern Affairs, South and Central Asian Affairs, and Western Hemisphere Affairs,
should task U.S. embassies to draft the interim reports for the countries on the Tier 2 Watch List,
subject to Office to Monitor and Combat Trafficking in Persons concurrence with the draft.
(Action: J/TIP, in coordination with AF, EUR, EAP, NEA, SCA, and WHA)




                                          12
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




Forced Labor

        In 2011, the Secretary of State approved an interpretation of the term “trafficking in
persons” that includes forced labor—an interpretation that J/TIP had traditionally used when
drafting the TIP report. The policy also allows the Bureau of Democracy, Human Rights, and
Labor to continue to focus on addressing forced labor without necessarily addressing other TIP
issues.

        The dichotomy is reflected in the Department’s annual Human Rights report, in the
forced labor subsection of Section 7, which deals with forced labor for each country. In places
where the Human Rights report addresses forced labor issues, the report provides a link to the
TIP report. In one country, for example, the 2010 Human Rights report states that, “…there were
no credible reports of forced labor.” The corresponding TIP report notes an extensive problem
with forced labor in the same country. These inconsistent accounts can confuse readers and
undermine the integrity of the Department’s published reports.

Recommendation 10: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Democracy, Human Rights, and Labor, should review and
strengthen the current coordination mechanism to ensure that issues that intersect forced labor
and human trafficking in the Department of State’s annual reports are consistent. (Action: J/TIP,
in coordination with DRL)

Awards

         It is Department policy, in 3 Foreign Affairs Manual (FAM) 4812, to encourage
participation in improving U.S. Government operations. To that end, the Department’s awards
program recognizes employees for performance, efforts, and performing special acts or services.
The Department has established annual awards for excellence in many programs such as
international economic performance, success in trade development, and commitment to peace
and alleviation of human suffering. 6 There is no award, however, for outstanding achievements
in combating trafficking in persons. The United States has made a strong commitment to
eradicate trafficking in persons. Department officers take initiative, accept risks, and perform
skillfully to advance U.S. antitrafficking interests, particularly abroad. The Department’s awards
program offers an opportunity to recognize those officers who have significantly advanced the
U.S. Government’s antitrafficking objectives.

Recommendation 11: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Human Resources, should establish an annual award
recognizing a Department employee for outstanding achievement in combating trafficking in
persons. (Action: J/TIP, in coordination with DGHR)




6
    See 3 FAM 4831- 4837.
                                         13
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


International Programs

        J/TIP links its antitrafficking foreign assistance to the annual TIP report: priority
countries are drawn from those ranked as Tier 3, Tier 2 watch list, and Tier 2 countries whose
governments have the will to improve their response to trafficking but lack resources to do so. In
2011, J/TIP designated 34 countries and three subregions for priority funding, based on the 2010
report’s rankings, current antitrafficking programming, and consultations with other offices in
the Department. This section of the inspection report addresses the programmatic aspect of the
section’s grants. The Grants Management section of the inspection report reviews J/TIP’s
technical grants procedures.

        The international programs section includes a senior coordinator, a deputy senior
coordinator, six program officers, and two contractors. While section members are committed to
the J/TIP mission, excessive work hours, cramped (b) (5)
                                                            Recently the section has become
short-handed due to two vacancies, but the replacement staff members are expected to begin
work shortly. During the inspection, the long time senior coordinator, an internationally
recognized expert, transitioned as planned to new duties to become a senior advisor to the J/TIP
Director. She has not yet been replaced, leaving day-to-day supervision to the competent deputy
coordinator, who has recently been appointed acting senior coordinator.

        The section’s workload is heavy. Some program officers now manage more than 40
grants each located in many different countries. The staff consensus is that 25 to 30 grants per
officer are a more reasonable workload. The unit monitored 168 active grants in 68 countries and
two special areas (Caribbean and Pacific Islands), totaling nearly $64.2 million as of October
2011. In addition, program officers evaluate hundreds of statements of interest (SOI) for new
grants each year.

        J/TIP’s foreign assistance comes entirely from International Narcotics Control and Law
Enforcement (INCLE) funds. Economic Support Fund resources, which accounted for the bulk
of J/TIP’s foreign assistance budget at the time of the 2006 inspection, stopped after FY 2010, in
part because J/TIP determined that the Economic Support Fund interagency transfer process
often delayed disbursements. The 24 percent drop in appropriated program funds, from $21.3
million in FY 2010 to $16.3 million in FY 2011, has reduced J/TIP’s ability to help poor
countries with the will to improve but without adequate resources to make antitrafficking
progress. Ironically, this could result in lower tier ratings for some and increase the risk of being
sanctioned. In FY 2012, J/TIP asked for $20.8 million in grants, but this level has not yet been
approved.

       Presented below is an illustrative, but not exhaustive, list of J/TIP grants in FY 2011.

   •   Zambia: provide training to investigate and prosecute traffickers and support government
       shelters for victims;
   •   Philippines: improve local justice system to respond to sex trafficking;
   •   Solomon Islands: develop data collection system on TIP cases for reporting, referrals, and
       prosecutions, and engage in an anti-TIP public awareness campaign;

                                          14
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


   •   Turkey: assist government to establish standard operating procedures for the
       identification and referral of trafficking victims;
   •   Bangladesh: support government efforts to reduce labor trafficking;
   •   Mexico: provide technical assistance on victim protection and increased regional and
       national antitrafficking networks;
   •   Global: increase capacity of the UN Office of Drugs and Crime to implement the Palermo
       Protocol (the UN Antitrafficking Convention);
   •   Research: conduct research to understand the health needs of labor trafficking victims.

Grants Review Process

        The 2006 inspection recommended that J/TIP “should submit grant proposals and reports
to a rigorous peer review when awarding grants to groups with which embassies and geographic
bureaus are not familiar or comfortable.” J/TIP has made strides in this area. It allocates its
antitrafficking foreign assistance as a result of an annual open and competitive two-stage peer
review process. J/TIP begins by soliciting two-page SOIs from U.S.-based and foreign nonprofit
organizations, nongovernmental organizations (NGO), public international organizations, and
universities. For-profit organizations are also eligible, but may not generate a profit from grants-
funded activities. NGOs have complimented this process for its efficiency and for permitting
them and J/TIP to suggest more project ideas for consideration.

       The review process involves coordination between J/TIP and the regional bureaus; the
Bureau of International Narcotics and Law Enforcement Affairs; the Bureau of Democracy,
Human Rights, and Labor; the Bureau of Population, Refugees and Migration; overseas missions
and Washington offices of the U.S. Agency for International Development; and U.S. embassies.
Interagency partners may include the Departments of Homeland Security, Justice, Labor, and
Health and Human Services.

        In the first stage of the process, SOIs are screened to see whether they meet technical
requirements in the solicitation. Those passing technical review are evaluated by knowledgeable
officials with area expertise. Highly rated applicants are then invited to submit full proposals that
expand on their submissions. During the final stage of the process, proposals are competitively
reviewed by the embassy in the concerned country as well as by an interagency antitrafficking
experts panel. The J/TIP Director reviews the results and passes his recommendations to the
Director of U.S. Foreign Assistance who gives final approval. Congressional notification must
take place before grants are awarded. Grants awards cannot exceed $750,000, and projects can
run up to 36 months. U.S.-based NGOs and public international organizations each implement
approximately one-third of the grants, foreign NGOs implement approximately 20 percent, and
universities approximately 5 percent.

        Each year J/TIP uses lessons learned to make changes to streamline and improve its
grants award process, which is favorably regarded by potential grantees. For instance, the
international programs unit hosts a “Bidders Conference” for potential applicants in Washington
to kick off the solicitation period, explain the review process, and answer questions. The results
are posted on the J/TIP Web site. In 2011, there was a further refinement: a Web chat with
questions from embassies and NGOs around the world.

                                          15
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Competition for grants is fierce. In FY 2011, J/TIP received 429 SOIs for proposed
projects in 83 countries totaling $234.4 million. At the conclusion of the interagency review, 69
grants were awarded to 43 organizations in 37 countries totaling $24 million. This amount
included $4.5 million in funds especially appropriated for antitrafficking projects in post-
earthquake Haiti and approximately $3 million in FY 2010 funds allocated primarily for projects
in India and Afghanistan.
Innovative Practice: Grants Review Process


Innovative Practice: Grants Review Process

Issue: Each year it is a challenge for J/TIP to review hundreds of antitrafficking grants proposals
expeditiously so that awards may be made before the end of the fiscal year.

Response: The grants process has been broken down into two stages. In response to an annual
solicitation, grants applicants submit a two-page statement of interest. Antitrafficking experts in
the Department, other agencies and embassies review them to select those most responsive to
U.S. Government antitrafficking priorities. Those selected are invited to submit full proposals,
which are again reviewed by experts and embassies. Final selections are made from a much
smaller group of applicants. The two-stage process allows faster awards than before.

Result: J/TIP conducts the grants selection process in a predictable, fair, transparent, and
systematic manner. All relevant U.S. Government offices, agencies, and embassies participate.
J/TIP solicits full proposals only from applicants whose statements of interest meet technical
standards and are responsive to U.S. antitrafficking priorities, thus eliminating full blown grant
proposal submissions by unsuccessful applicants. Grants awards are now made before the end of
the fiscal year. Those seeking grants praise this innovative two-stage process.


       Other Department offices and U.S. agencies, including the Bureau of International
Narcotics and Law Enforcement Affairs, the Bureau of Democracy, Human Rights, and Labor,
the Bureau of Population, Refugees and Migration, the U.S. Agency for International
Development, and the Department of Labor, also provide foreign antitrafficking assistance.
Information on proposed antitrafficking grants is circulated via listserv by the SPOG secretariat.
There is a 7 business day comment period during which agencies may provide views on whether
a proposed grant would duplicate existing or planned grants and on opportunities for partnership
and collaboration with their agency’s programs. The system appears to work well, enhancing
transparency and coordination.

Managing Workloads

         The peak workload in the international programs section coincides closely with the
period of heaviest activity in the RPA section. This overlap effectively prevents personnel in one
unit from helping the other. The grants review timeline is currently designed to allow grants
awards by the end of the fiscal year in September. Bearing this timing in mind, J/TIP solicits
grant proposals in late October, early in the fiscal year. SOIs from applicants are due a month
later, after which they are rank-ordered by embassies. The technical review of the SOIs takes
                                                  16
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

place in February and selected potential grantees are invited to submit full grant proposals by
mid-April. The J/TIP Director makes final decisions in May. J/TIP awards grants from July to
September so that projects may start at the beginning of the next fiscal year in October. Thus the
unit experiences three periods of intensive work: in January when SOIs are reviewed; in April
when full proposals are reviewed; and in July-September when proposals to be funded are
finalized and prepared for awarding. RPA works most intensively during the spring drafting of
the annual TIP report in order to meet the congressionally mandated issuance date at the end of
June. The OIG team recognizes that this schedule offers little opportunity with current resources
and personnel to reduce per officer workload, particularly during this peak period.

        A universal staff complaint is the unrelenting workload on program officers. At present,
J/TIP accepts SOIs for grants in all countries, including Tier 1 countries, despite signaling to
applicants that J/TIP is most likely to select proposals in the named priority countries. Explicitly
limiting SOIs to priority countries in the solicitation would reduce the number of SOIs examined
by J/TIP, embassies, and other Department offices and agencies, and could alleviate the proposal
review workload.

Recommendation 12: The Office to Monitor and Combat Trafficking in Persons should
explicitly limit the statements of interest received in response to the solicitation of grants
proposals to those destined for priority countries identified in the annual Trafficking-in-Persons
report. (Action: J/TIP)

Grants Priorities

        In addition to being directed toward priority countries identified in the annual TIP report,
J/TIP grants are guided by the 2000 TVPA, which covers prosecution of traffickers, protection of
victims, prevention of trafficking, and development of partnerships. J/TIP funds programs in all
four areas:

       •   90 percent of current projects include a protection component and 61 percent provide
           direct services to victims;
       •   52 percent build capacity of local law enforcement and prosecutors to apprehend and
           prosecute traffickers;
       •   91 percent of prevention programs include victim protection activities; and
       •   74 percent focus on both labor and sex trafficking to ensure a comprehensive
           response to all forms of trafficking.

        Examples of J/TIP-funded projects include: providing technical support and training to
law enforcement, including prosecutors and judges, in investigating and prosecuting trafficking
cases; building cooperation between NGOs and government agencies; improving practices and
policies for law enforcement, immigration, and other agencies to identify and assist trafficking
victims; developing or improving services to trafficking victims so that they are treated with
respect rather than as illegal aliens or criminals subject to detention or deportation; providing
expertise to draft or improve antitrafficking legislation and its implementation; and supporting
prevention activities to reduce the demand for sex trafficking or slavery-produced goods.

Grants Effectiveness
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        Even as the number of antitrafficking programs grows, there is little empirical research to
guide practice and inform policy. Few programs have been rigorously evaluated. In a time of
budget constraints, research and evaluation of programs will help increase program effectiveness
and target scarce resources efficiently. J/TIP has taken steps to evaluate programs that
demonstrate aid effectiveness and deliver tangible results from its antitrafficking efforts.
Program evaluation and performance measurement are key components of its strategy. J/TIP’s
three-pronged approach to monitor and assess program effectiveness requires funded programs
to use a logical framework with suggested performance indicators; increases on-site monitoring
of program implementation and financial management; and funds impact assessments.

       To promote sound project design, J/TIP requires applicants to submit a logical framework
that demonstrates the relationship between proposal goals and objectives and includes
performance measurement indicators for outputs and outcomes of each objective. J/TIP
developed a fact sheet to explain how to develop the framework and standardized on-site reviews
of funded projects to assess fiscal and administrative management and programmatic progress
and effectiveness. Even though J/TIP reviewed 44 projects in FY 2010 to ensure quality
programming, the international programs staff is too few in number to visit all projects regularly.

Research and Evaluation

        The 2006 inspection recommended that J/TIP should assign more staff hours to
determining what research the U.S. Government needs, mining research for best practices,
disseminating those best practices with other agencies and posts, and integrating those best
practices into antitrafficking programs. In response, J/TIP increased its work in the research and
evaluation field. In FY 2008, it funded evaluations of antitrafficking programs in five geographic
areas. Programs were visited on-site and evaluated on the basis of soundness of the project
design, potential replication of activities, measurement of effectiveness, and whether data is
available to determine impact. The assessments gave grantees technical assistance to improve
program implementation and data collection. J/TIP undertook similar process evaluations in FYs
2010 and 2011. Several J/TIP-funded programs are highlighted as “promising practices” in a
forthcoming report from the SPOG Grant Making Committee

        During the last decade, there has been a sharp increase in journal articles, reports, and
books on trafficking. Most are descriptive and are usually not based on empirical research or
peer reviewed. Consequently, J/TIP increased its support of evidence-based research, including
the Global Database on Human Trafficking, to identify trends and inform policy and practice.
Data from 16,500 victims in more than 100 countries collected over a 10-year period showed
more trafficking of males, an older victim population, and how traffickers are changing their
methods. There is a lack of research evaluating countries that have institutionalized a successful
antitrafficking framework from investigating and successfully prosecuting traffickers to
protecting victims. J/TIP is funding case studies in Europe, Asia, and Latin America to identify
best practices in developing a successful national program that will be the basis of a handbook.




                                          18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Public Engagement

        The public engagement section supports the SPOG, including the annual PITF chaired by
the Secretary; manages congressional relations; supports partnerships with civil society and the
private sector to encourage the adoption of codes of conduct and commodity and supply-chain
monitoring; and provides clerical support to the J/TIP deputy. It also discharges traditional
public diplomacy functions, including speechwriting for the Director, preparing daily press clips,
and maintaining the Internet and two intranet sites. Its staff includes 11 personnel led by a senior
coordinator.

        The public engagement section follows a strategy in coordination with the Bureau of
Public Affairs. This strategy includes integrating, in coordination with the RPA section, TIP
issues into senior Department policymakers’ talking points, briefing books, and speeches for
domestic and overseas events. In discussions with senior Department officials during the survey
portion of this inspection, the OIG team confirmed that Department officials are raising key TIP
points in meetings with foreign officials as well as in public remarks domestically and overseas.
J/TIP reports that it has had limited success in getting public affairs sections in U.S. embassies to
agree to joint media outreach efforts such as digital videoconference briefings of local journalists
by J/TIP staff.

       The Director and other senior J/TIP staff share a heavy schedule of speaking
engagements. The senior coordinator participates in a regularly scheduled convening committee
chaired by the Director, which vets speaker requests by selecting opportunities based upon
J/TIP’s outreach strategy designed by the public engagement section, the J/TIP Bureau Strategic
and Resource Plan goals, and the availability of speakers.

         Along with preparations for the PITF annual meeting chaired by the Secretary, the TIP
report annual roll out in June is one of two major public engagement undertakings during the
year. J/TIP works closely with the Bureau of Public Affairs in orchestrating events surrounding
the roll out, including follow-on media events. The Secretary introduced the 2011 TIP report to
an audience of over 400 foreign diplomats, federal agency TIP experts, NGO representatives,
members of Congress and their staff, and the media. Special guests included an international
contingent of the 10 antitrafficking heroes nominated by U.S. embassies. J/TIP coordinates the
roll out with U.S. missions overseas to maximize local media coverage in host countries. It also
arranges digital videoconferences and other media devices to engage foreign audiences.

        Throughout the year, the public engagement section, working with the Director and other
senior J/TIP staff, stages Web chats, social media, blogs, and digital videoconferences to
promote TIP awareness. In addition to electronic media, J/TIP places articles and editorial page
opinions in traditional print media and broadcast media. For example, the public engagement
section staff has developed media contacts to get the message out to mass audiences in the
United States and abroad, which often takes months to implement. The staff has developed good
relationships with broadcast media such as the producers of the Cable News Network’s Freedom
Project and with outlets including MSNBC, Al Jazeera English, and a range of local media
sources.


                                          19
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

        One highly successful initiative has been the Slavery Footprint, an online and mobile
survey and application created by a nonprofit organization in collaboration with J/TIP.
Launched in 2010, it has proven to be among J/TIP’s most effective public awareness building
tools both domestically and overseas. It has also attracted private sector financial support. It
enables consumers to quantify the estimated forced labor involved in supporting their lifestyles
based on their consumer product choices. 7 Survey takers interactively can alter their purchase
choices and reduce the impact of modern slavery. The creators of the survey and application
originally estimated reaching the 150,000 user milestone by September 2012. By the time of this
inspection, Slavery Footprint had recorded over 2 million user views from over 100 countries.

        The public engagement section conducts trainings and foreign visitor briefings in
cooperation with the International Visitor Leadership Program (IVLP) of the Bureau of
Educational and Cultural Affairs. TIP-focused IVLPs have become a regular program
occurrence—including regional IVLPs on TIP – that entail traveling to other U.S. cities to see
best practices face-to-face. Indeed, under the IVLP, U.S. officials at the federal, state, and local
levels continue to provide briefings to emerging foreign leaders and government officials with
responsibilities related to TIP. The OIG team commends this collaboration between J/TIP and
the Bureau of Educational and Cultural Affairs to advance this foreign policy and civil society
goal.

       Section members also conduct other Department, domestic, or overseas training either
alone or in coordination with the Foreign Service Institute, international organizations, NGOs,
and federal agencies such as the Department of Homeland Security.

Donors and Public-Private Partnerships

        Private sector enterprises or foundations are increasingly interested in making funds
available for antitrafficking activities as a result of J/TIP’s efforts to raise awareness. Others look
to J/TIP to assist them in funding activities that further the antitrafficking mission. J/TIP and
other offices in the Department are well positioned to serve as brokers or conveners to build
partnerships among those with willing resources and NGOs active in combating modern slavery.
There are many types of public-private partnerships and the Department has ample guidance. 8
Alternatively, J/TIP can both solicit and program private funds for foreign assistance purposes
using existing Department authorities. 9

Recommendation 13: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Resource Management, the Office of Global Partnership
Initiatives, the Office of the Legal Adviser, and the Bureau of International Narcotics and Law
Enforcement Affairs should implement a plan to partner with private sector potential donors or
partners, consistent with existing Department authorities. (Action: J/TIP, in coordination with
RM, S/GPI, L, and INL)


7
  http://www.slaveryfootprint.org
8
  Policy Framework and Legal Guidelines for Partnerships, U.S. Department of State, February 2011.
9
  State Basic Authorities Act of 1956, as amended, Section 25; 22 USC 2697, Acceptance of gifts on behalf of the
United States; Foreign Assistance Act of 1961, as amended, (Pub. Law 87-195), Section 635(d); 2 FAM 960 through
2 FAM 962; and 4 FAM 380.
                                             20
                                 SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED



        The public engagement section works with corporations to promote the understanding of
corporate codes of conduct such as the Luxor Protocol for implementation of the Athens Ethical
Principles, and the responsibility of corporations to monitor their supply chains. The section
foresees this activity as a growing part of its workload, including coordination with the corporate
social responsibility team of the Bureau of Economic and Business Affairs, as U.S. and
multinational corporations, associations, and legislators show increased interest.

        Among its notable efforts and successes, the public engagement section helped the
Department of Homeland Security, through a SPOG working group, launch two online
interactive training modules, one for the general public and the other for all federal acquisitions
professionals aimed at the zero tolerance policy in government contracting. The section also
worked with the Bureau of Educational and Cultural Affairs to incorporate trafficking-prevention
components among the measures taken to revamp the Summer Work Travel program. The
section has also worked with the protocol office to better track allegations of abuse and establish
requirements for the treatment of domestic workers of foreign diplomats in the United States to
help prevent TIP abuses.

Public Awareness and Prevention

         The 3Ps paradigm of prevention, protection, and prosecution is a fundamental framework
in efforts against modern slavery. The 2011 TIP report and the J/TIP Web site note that,
historically, prevention efforts focused on public awareness campaigns. The FY 2013 Bureau
Strategic and Resource Plan (goal number 3) seeks to advance the prevention goal by developing
and implementing specific public outreach strategies. Likewise, goal number 4, to promote
interagency cooperation, lists the intention of J/TIP staff support for the PITF to include
“measuring and evaluating progress of the USG and other countries in…prevention through
public awareness.” 10 Yet J/TIP believes measuring prevention success from public outreach
activities is difficult and resource intensive, especially to establish a causal link between an
awareness program or intervention and a set of prevention outcomes. The Bureau Strategic and
Resource Plan reflects that belief by using activities or outputs as measures rather than results or
outcomes. J/TIP staff could not answer, on the basis of metrics, the question, “How do you know
how effective you have been from awareness campaigns?” The Director, in public remarks, has
acknowledged that prevention is seen as the weakest of the 3Ps with respect to evaluation.

        J/TIP has robust measures of quantifiable outcomes from prosecution and protection.
Quantified measures of U.S. prevention are harder to find, but can be developed. For example,
the National Human Trafficking Resource Center 24-hour hotline tracks the number of telephone
calls by individuals who identify the Know Your Rights pamphlet, which is distributed to certain
individuals who apply for a U.S. visa, as the source of their hotline awareness. That pamphlet
was created in coordination with the Bureau of Consular Affairs, other federal agencies, and
NGOs as a result of passage of the William Wilberforce Trafficking Victims Protection
Reauthorization Act of 2008. 11 The public engagement section already uses a media impressions


10
     Office to Monitor and Combat Trafficking in Persons, FY 2013 Bureau Strategic and Resource Plan, p. 17.
11
     Pub. L. 110-457, Section 202.
                                                21
                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

formula as a broad measure of the audience exposed to mentions of J/TIP or the TIP report.
“Media impressions” is a standardized Department public diplomacy measure that reflects
exposure and awareness, but by itself is not a reliable measure of trafficking being prevented.
This type of measure, however, can be combined with other statistics to estimate an impact on
prevention.

Recommendation 14: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureaus of African Affairs, European and Eurasian Affairs, East Asian and
Pacific Affairs, Near Eastern Affairs, South and Central Asian Affairs, and Western Hemisphere
Affairs, should develop additional performance metrics that capture the prevention or other
related gains from various antitrafficking awareness activities and other related programs or
legislation. (Action: J/TIP, in coordination with AF, EUR, EAP, NEA, SCA, and WHA)

Senior Policy Operating Group Support

         As the TVPA intended, J/TIP’s Director has chaired for a decade the principal
interagency mechanism on U.S. antitrafficking cooperation and coordination, the SPOG.
Supported by the SPOG, the PITF has met yearly at the principals’ level heightening awareness
and showcasing the wide range of U.S. Government antitrafficking activities. A three-person unit
of the public engagement section provides support to J/TIP’s interagency role as coordinator of
the SPOG, which meets quarterly. This capacity and the Director’s leadership have been key
elements in expanding the SPOG’s agenda and effectiveness. The unit operates as the secretariat
for the SPOG. As J/TIP’s subject matter expert on TIP in the United States, the unit drafts the
U.S. narrative to the TIP report and fields questions about the U.S. experience and statistics from
other countries as forwarded by U.S. embassies. The unit also handles non-SPOG interagency
initiatives and communication. Members of the SPOG support unit and other members of the
public engagement section cochair the various SPOG working level committees, including the
SPOG public affairs committee and the research and data committee, and provide other support
to those committees.

Congressional Liaison

        By passing the TVPA, Congress made clear its interest in TIP policy and J/TIP’s progress
in implementing the TVPA’s mandate. Consequently, J/TIP is properly sensitive to
congressional interest and concerns. The public engagement section currently engages two
employees who give part-time support to the congressional liaison function, in addition to their
other portfolios. As necessary, other J/TIP staff, such as the Director’s speech writer or relevant
subject matter experts in other sections, may be called upon to prepare congressional testimony
or responses to congressional interrogatories. The incoming team leader, who has worked most
recently as a congressional staff person, will strengthen the office’s capacity to manage
congressional relations.




                                          22
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Resource Management
Financial and Human Resources

                                       J/TIP FY 2012 Staffing
    U.S.    Foreign       Civil    Contractors Part-Time Detailees Students/ Total
 Domestic Service Service                                           Interns
   Staff
                2          37            7         2        1         3*     52 12
*J/TIP normally has 3 interns per quarter.
Note: J/TIP does not have overseas staff.

                                 J/TIP FY 2012 Funding
                              Description                                                    Amount
Diplomatic and Consular Programs                                                              $3,000,000
International Narcotics Control and Law Enforcement (INCLE)                                  $16,233,000
American salaries (not controlled by J/TIP)                                                   $4,000,000


Staffing

        From FY 2009 to FY 2010, J/TIP staff increased 27 percent (from 38 to 52) and nearly 50
percent (from 27 to 52) since late 2005 as its mandate under law and workload has grown. The
senior coordinator for resource management and planning (RMP) has worked with J/TIP
leadership to determine how best to allocate new personnel. Recommendation 1 in the Executive
Direction section notes one area of staffing focus that needs attention.

        Unlike comparable bureaus or independent offices, J/TIP’s staff is composed almost
entirely of Civil Service employees or contractors hired directly into the J/TIP office. Two
positions are currently designated Foreign Service. A few J/TIP staff members have served in
U.S. embassies but most lack the actual embassy experience overseas or in diverse bureau
assignments within the Department that is typical of career Foreign Service personnel. Their lack
of experience limits J/TIP’s knowledge of the way embassy staffs engage host country
governments and civil societies. Discussion with J/TIP leadership suggests that J/TIP sees value
in and welcomes additional Foreign Service participation in the office. J/TIP notes that it has
sought without success to address this Foreign Service Civil Service employee imbalance, as
noted in the 2005 inspection report and in its yearly Bureau Strategic and Resource Plan
exercise.

Recommendation 15: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Human Resources, should request, and the Bureau of Human



12
  This number represents “on board” staffing as opposed to authorized positions. The 52 total includes a waiver
from the Bureau of Human Resources for 1 Civil Service position and 1 Foreign Service position.
                                               23
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Resources should fill, the next two new full-time equivalent positions, if granted, with Foreign
Service officers. (Action: J/TIP, in coordination with DGHR)

Recommendation 16: The Office to Monitor and Combat Trafficking in Persons should request
reprogramming of the next vacant position in the reports and political affairs section and the next
vacant position in the public engagement section from Civil Service to Foreign Service, and the
Bureau of Human Resources should approve the request. (Action: J/TIP, in coordination with
DGHR)

Recommendation 17: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Human Resources, should request, and the Bureau of Human
Resources should approve, reprogramming position S8403506 in the reports and political affairs
section from Civil Service to Foreign Service. (Action: J/TIP, in coordination with DGHR)

        The OIG team also counseled J/TIP managers on the need for an active, innovative plan
to identify and recruit suitable Foreign Service officers that includes efforts to facilitate career
enhancing onward assignments as part of that plan.

Strategic Planning

         The senior coordinator for RMP coordinates and oversees J/TIP’s foreign assistance
budget process and annual strategic and performance planning functions. She liaises with other
Department functional and regional bureaus (for example, the Office of the Director for U.S.
Foreign Assistance and the Bureau of International Narcotics and Law Enforcement Affairs), and
other foreign affairs agencies on budget related reporting (for example, the Operational Plan and
Performance Plans reports) and other activities related to the federal budget process (for
example, the Congressional Budget Justification and Office of Management and Budget
justifications). The senior coordinator works with J/TIP’s front office and other J/TIP sections to
prepare the Bureau Strategic and Resource Plan and participates in office policy formulation.
J/TIP currently is drafting an evaluation policy initiative in response to the Department’s new
policy and guidance.

Resource Management and Planning Team

       In addition to strategic planning, the senior coordinator for RMP oversees a variety of
functions, including administrative, grants management operations, and front office support.
Currently a staff of nine (five Civil Service employees and four contractors) supports the
coordinator for these functions.

Administrative Operations

        From 2001 to 2007, J/TIP received executive office support from the Bureau of
International Narcotics and Law Enforcement Affairs, Office of Resource Management
(INL/RM). In 2006, J/TIP assumed some of these functions and added a grants officer and
budget analyst to its staff. In 2007, J/TIP took over from INL/RM management of its diplomatic
and consular programs operating funds, and performs the budget execution of INCLE funds
allocated to J/TIP through INL/RM’s management. INL/RM continues to provide some
                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

administrative support, including INCLE funds control, oversight of general services operations,
and information technology support. In FY 2010, J/TIP piloted with the Bureau of Human
Resources, Office of Shared Services (HR/SS) for human resources support, transferring from
INL/RM’s contracted support with a Department human resources service provider. As part of
the arrangement, J/TIP established a human resources specialist position to liaise with HR/SS.

Human Resources

        A GS-12 human resources specialist provides support to J/TIP and liaises with HR/SS.
She performs the full gamut of human resources functions except for position classification,
employee actions, and initial orientation for newly hired employees, which HR/SS provides
under a service agreement. J/TIP also consults with them if further clarification of policies in the
Foreign Affairs Manual is required. J/TIP is satisfied with the support it receives from HR/SS.
The human resources specialist performs other administrative duties and oversight in the section
and serves as a de facto team leader for RMP. J/TIP plans to restructure this position and create a
team leader position, similar to an administrative officer, which will reflect the structure of the
other J/TIP sections. The OIG team agrees with this plan.

Training

        J/TIP has no overall staff training plan. Staff complains that required training has been
hard to schedule. The OIG team found staff training opportunities were not consistently applied
throughout the office. Thus, some employees are encouraged to use training to enhance
knowledge and skills required for their positions, while others are not, in part because of
workload. A training plan for J/TIP is necessary to facilitate career development, training, and
mobility for employees at all levels. J/TIP also does not comply with the Department’s
mandatory leadership and management training requirement. At the time of the inspection, eight
of the office’s GS-13, GS-14, and GS-15 employees had not attended required Foreign Service
Institute leadership and management courses.

Recommendation 18: The Office to Combat and Monitor Trafficking in Persons should conduct
a training needs assessment of its staff, develop a training plan, and implement it. (Action:
J/TIP)

Recommendation 19: The Office to Combat and Monitor Trafficking in Persons should require
overdue employees to attend the mandatory Foreign Service Institute leadership and
management courses. (Action: J/TIP)

       Performance management is discussed in the Management Controls section of the report.

Equal Employment Opportunity

        Although J/TIP does not have a designated Equal Employment Opportunity counselor,
the office uses Office of Civil Rights procedures for employees to identify and request a
counselor, if needed. J/TIP reminds employees about the Department’s Equal Employment
Opportunity policies by periodically sending out reminders and other means, such as brown bag
luncheons the human resources specialist organizes. J/TIP plans to add Department Equal
                                          25
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Employment Opportunity policies and guidance to its new orientation manual as a way to further
inform employees. J/TIP staff generally gave the office consistently high marks for Equal
Employment Opportunity awareness. The Office of Civil Rights confirmed that J/TIP did not
have any Equal Employment Opportunity complaints filed over the last 5 years.

Grants Management

       J/TIP currently oversees 168 grants in 68 countries and two special areas. Grants are
funded from INCLE funds appropriated through INL/RM. A full-time grants officer hired in
January 2011 and one contractor compose the management section. All program officers have
received training for and been certified as grants officer representatives.

        J/TIP has complied with Recommendation 5 of the 2006 inspection, which said that it
“should establish and follow written procedures for maintaining grants files to include filing
order, required documentation, such as financial and audit reports and six month and final
evaluations, as well as monitoring reports, such as trip reports.” J/TIP has improved its files
maintenance since the last inspection and written procedures for maintaining files have been
issued. J/TIP centralized its hard-copy grants files in a single cabinet to the benefit of program
officers, who no longer maintain working files. An examination of a sample of the hard-copy
files show that they are well-organized and contain essential grant information, including
agreements, trip reports, mandated programmatic and financial reports, and correspondence.
Much of this information is increasingly collected electronically in the new State Assistance
Management System (SAMS).

State Assistance Management System

        In FY 2010, J/TIP was the first Department office to pilot SAMS for its grants with full
deployment in FY 2011. Although SAMS has had a dramatic impact by making grants
management more efficient, the system remains under development and reportedly is not user
friendly. J/TIP’s experience with SAMS has been generally positive, but the system still lacks
necessary capabilities. All SOI applications are now received through SAMS, and periodic
performance reports from grantees are received into the system. Grantees submit quarterly
financial reports through the payment management system; however, SAMS so far cannot easily
incorporate correspondence, including emails between program officers, grantees, embassy
officers and others into its electronic grants files. At present, these materials are held in the hard-
copy files. J/TIP is working diligently with SAMS technical staff to make the system more
comprehensive and effective as a monitoring and management tool.

Closeouts

        The closeout procedure is the crucial final step in the grants life cycle and affects the
Department’s financial management. After grants have ended, they must be closed out in a
regular and timely fashion so that unused funds can be reobligated by the Department for other
purposes or returned to the U.S. Treasury. Unliquidated funds risk waste, fraud, and abuse.

       Grants Policy Directive 41 and the Code of Federal Regulations establish procedures for
closeouts. Under the Directive, closeout of a grant should be completed within 30 days of receipt
                                           26
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

of final financial, performance, and other reports from the grantee or 120 days after the end of
the project period end date, unless waived by the grants officer. Chapter 22 Section 145.71
“Closeout Procedures” in the Code of Federal Regulations require that a grant recipient submit
all financial, performance, and other reports required by the award contract within 90 days of the
grant completion and that, unless waived by the grants officer, a recipient must liquidate all
obligations under the award within 90 days of the funding period or the date of completion.

        The OIG team found that a large number of grants have not been closed out in
compliance with Grants Policy Directive 41 and the Code of Federal Regulations. J/TIP admitted
that processing grants closeouts was not a high priority in the past and it did not have its own
grants officer until early in 2011 to perform this process in a timely manner.

        Since the end of FY 2011, J/TIP has given considerable emphasis to processing a
substantial backlog of delinquent closeouts and recovering unliquidated obligations. The office
recently hired a short-term contract employee to work exclusively on closeouts. As of the end of
December 2011, 33 grants had been closed out while 70 remain open and overdue, deobligating
$211,834. Of this amount, $135,550 was made available to J/TIP to reuse, but budget authority
on $76,283 had expired without benefit to the Department. At the time of the inspection, J/TIP
had not completed entry of some of its old grants into SAMS but is making good progress;
meanwhile, J/TIP continues to maintain hard-copy grants files.

Recommendation 20: The Office to Monitor and Combat Trafficking in Persons should
eliminate the backlog of delinquent grants closeouts. (Action: J/TIP)

Recommendation 21: The Office to Monitor and Combat Trafficking in Persons should institute
procedures to complete closeout of grants within 30 days of receipt of final financial,
performance, and other reports from the recipient or 120 days after the end of the project period
end date, unless waived by the grants officer, and in compliance with Code of Federal
Regulations closeout procedures with regard to future grants closeouts. (Action: J/TIP)

Keeping Embassies Informed

        J/TIP has worked to keep embassies better informed on grants since the 2006 inspection.
Embassies participate in the grants award process at the SOI stage and later when full grants
proposals are evaluated. J/TIP notifies embassies by cable after awarding grants. Since its staff
is too small to make regular site visits to all grantees, the international programs unit depends on
embassies to help it monitor grants performance. The OIG team learned of instances where
vigilant embassy officers alerted J/TIP to potential grantee problems. Such timely notice allows
J/TIP to make a site visit early enough to investigate and prepare a corrective action plan to save
the grant. Not all interventions are successful. A $575,000 grant was recently terminated in Haiti
following a determination that the grantee failed to comply with the terms and conditions of the
grant award.

        Embassies do not now receive regular periodic grantee performance reports sent to J/TIP
as a condition of the grant agreement. J/TIP explained that SAMS does not facilitate sharing such
reports with embassies and J/TIP program officers have workload difficulties that prevent them
from ensuring that embassies receive regular reports. J/TIP agrees that sharing reports on a
                                          27
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

regular basis with embassies would be beneficial, strengthening embassies’ abilities to spot
possible problems and facilitate monitoring performance on the spot.

Recommendation 22: The Office to Monitor and Combat Trafficking in Persons should amend
the language in the standard grant agreement to commit grantees to make their semiannual
performance reports to the Office to Monitor and Combat Trafficking in Persons available
simultaneously to the concerned embassy. (Action: J/TIP)

Space

         J/TIP’s office is located in a building about a 15-minute walk from the Harry S Truman
building. Not being located in the main building contributes to a sense of isolation and separation
among the staff. It also inhibits Truman building counterparts from attending J/TIP meetings,
most of which take place in the J/TIP office. This situation affects J/TIP staff morale and has
reinforced the perception in both J/TIP and the Department that J/TIP is not an integral part of
the Department. J/TIP has pursued resolution of the space issue with the Under Secretary for
Civilian Security, Democracy, and Human Rights, the Bureau of Administration, and INL/RM.
Also affecting morale is the fact that working conditions are crowded with most offices having
double and, in some cases, triple occupancy. Other staff members are located in small cubicles or
are using desks in hallways. While not formalized, the current plan is for J/TIP, in the undefined
future, to occupy space to be vacated by the Bureau of International Narcotics and Law
Enforcement Affairs in its current location. That plan would not address the issue of integration of
J/TIP into the Department.

Recommendation 23: The Bureau of Administration, in coordination with the Office to Monitor
and Combat Trafficking in Persons, should conduct an office space utilization study and identify
space in the Harry S Truman Building or adjacent annexes for relocation of the Office to Monitor
and Combat Trafficking in Persons. (Action: A, in coordination with J/TIP)

Information Management

        J/TIP receives information technology support from INL/RM and the Bureau of
Information Resource Management; it does not have its own information technology
applications. J/TIP is satisfied with the support it receives from INL/RM. Since INL/RM is
located in the same building and on the same floor as J/TIP, requests for services are promptly
resolved. INL/RM has made regular funds’ transfers to provide information technology support
to J/TIP. J/TIP finalized a memorandum of agreement with INL/RM during the inspection that
documents INL/RM’s services to J/TIP including information technology services and also
defines reimbursement by J/TIP for services rendered.




                                          28
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
        The OIG team found no evidence that the Director of J/TIP has ever submitted a
statement of assurance to the Secretary as required by 2 FAM 022.7. This requirement was
apparently overlooked as J/TIP reported to the Under Secretary for Global Affairs in 2001 when
the office was created. J/TIP received executive office support from INL/RM during the time
when the Bureau of International Narcotics and Law Enforcement Affairs moved from the Office
of the Under Secretary for Global Affairs to the Office of the Under Secretary for Political
Affairs. The senior coordinator for RMP is J/TIP’s designated management controls officer, but
the designation is not specified in her position description. It is, however, noted in her
performance appraisal in reference to office security and emergency response programs. While
J/TIP appears to be cognizant of internal controls, the absence of a management controls
program leaves the office vulnerable to fraud, waste, and mismanagement, especially with the
significant staff turnover.

Recommendation 24: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Resource Management, should implement a management
controls program for the office and provide an assurance statement addressed to the Secretary of
State concerning the effectiveness of internal controls. (Action: J/TIP, in coordination with RM)

       Informal Recommendation 3: The Office to Monitor and Combat Trafficking in Persons
       should include the management controls designation in the appropriate employee’s
       position description and performance plan.

Performance Appraisals

        A review of J/TIP’s FY 2010 performance appraisals found that J/TIP had not prepared
appraisals and mid-year reviews on several employees in the office despite reminders sent to
supervisors. This supervisory failure does not comply with 3 Foreign Affairs Handbook-1 H-
2823.1 performance appraisal requirements for Civil Service employees. Through the
performance appraisal process, supervisors clarify employee work requirements, recognize
performance, identify training needs, and grant awards. The annual evaluation process is also
required to certify accurate position descriptions, provide the basis for granting within-grade step
increases, and determine an employee’s standing on retention registers in case of reductions in
force. Department regulations require that the responsibility for preparing performance
appraisals and mid-year reviews be specified in the supervisor’s work requirements.

Recommendation 25: The Office to Monitor and Combat Trafficking should implement
Department requirements for performance evaluations and mid-year performance reviews and
implement a plan to hold accountable supervisors who fail to carry them out. (Action: J/TIP)

       The OIG team’s review of J/TIP performance appraisals also found that in at least one
instance the wrong form was used. An employee with supervisory duties was rated on a form for
a nonsupervisory employee.



                                          29
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 4: The Office to Monitor and Combat Trafficking in Persons
       should review all employee performance plans and assign the appropriate form based on
       employee classification.

Purchase Cards

        The budget analyst is the purchase card holder in J/TIP, and the senior coordinator for
RMP is the approving officer. Having the budget analyst responsible for both ordering and
payment is not a proper separation of duties as required by OMB Circular A-123 and 2 FAM
032. However, J/TIP’s administrative staff is small and there are few direct-hire employees who
can be assigned as cardholders. J/TIP has immediate plans to use the Ariba procurement program
for the purchase card process, which will make it easier for another RMP staff member to
perform the ordering. The program will also generate a buying log, which the section currently
does not use but is recommended in the purchase card program manual. This action should
remedy both shortcomings.




                                        30
                            SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

(b) (5)




                      31
          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED
(b) (5)




                      32
          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED
(b) (5)




                      33
          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



List of Formal Recommendations
Recommendation 1: The Office to Monitor and Combat Trafficking in Persons should
develop a staffing plan to reapportion individual reports and political affairs officer
responsibilities among the personnel of the office in a manner to prevent individual officer burn
out and to prevent untimely staff turnover in the reports and political affairs section. (Action:
J/TIP)

Recommendation 2: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Foreign Service Institute, should create a distance learning course on
trafficking-in-persons issues and the Department of State’s obligations under the Trafficking
Victims Protection Act, as amended, targeted for embassy reporting officers, regional bureaus'
trafficking-in-persons coordinators, and their superiors. (Action: J/TIP, in coordination with
FSI)

Recommendation 3: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureaus of Human Resources, African Affairs, European and Eurasian
Affairs, East Asian and Pacific Affairs, Near Eastern Affairs, South and Central Asian Affairs,
and Western Hemisphere Affairs, should include specific trafficking-in-persons briefings for all
ambassadors and deputy chiefs of mission before they depart for their posts. (Action: J/TIP, in
coordination with DGHR, AF, EUR, EAP, NEA,SCA, and WHA)

Recommendation 4: The Office to Monitor and Combat Trafficking in Persons should update
the implementation guidelines for the minimum standards to reflect the latest language of the
Trafficking Victims Protection Act and plan to reissue the updated guidelines annually. (Action:
J/TIP)

Recommendation 5: The Office to Monitor and Combat Trafficking in Persons should
implement a plan to gather non-U.S. Government trafficking-in-persons data on countries and
share it with the appropriate U.S. embassy well before the due date of the embassy’s submission
of the Trafficking-In-Persons report data call. (Action: J/TIP)

Recommendation 6: The Office to Monitor and Combat Trafficking in Persons should revise
current practices for drafting the Trafficking-In-Persons report in order to share a draft of the
country narrative as early as practical with the concerned U.S. embassy and regional bureau.
(Action: J/TIP)

Recommendation 7: The Office to Monitor and Combat Trafficking in Persons should cease
publishing in hard copy the country narratives of the Trafficking-in-Persons report. (Action:
J/TIP)

Recommendation 8: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureaus of African Affairs, European and Eurasian Affairs, East Asian and
Pacific Affairs, Near Eastern Affairs, South and Central Asian Affairs, and Western Hemisphere
Affairs, should task U.S. embassies to develop action plans for their countries drawing from


                                         34
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Trafficking-in-Persons report narrative recommendations. (Action: J/TIP, in coordination with
AF, EUR, EAP, NEA, SCA, and WHA)

Recommendation 9: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureaus of African Affairs, European and Eurasian Affairs, East Asian and
Pacific Affairs, Near Eastern Affairs, South and Central Asian Affairs, and Western Hemisphere
Affirs, should task U.S. embassies to draft the interim reports for the countries on the Tier 2
Watch List, subject to Office to Monitor and Combat Trafficking in Persons concurrence with
the draft. (Action: J/TIP, in coordination with AF, EUR, EAP, NEA, SCA, and WHA)

Recommendation 10: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Democracy, Human Rights, and Labor, should review and
strengthen the current coordination mechanism to ensure that issues that intersect forced labor
and human trafficking in the Department of State’s annual reports are consistent. (Action: J/TIP,
in coordination with DRL)

Recommendation 11: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Human Resources, should establish an annual award
recognizing a Department employee for outstanding achievement in combating trafficking in
persons. (Action: J/TIP, in coordination with DGHR)

Recommendation 12: The Office to Monitor and Combat Trafficking in Persons should
explicitly limit the statements of interest received in response to the solicitation of grants
proposals to those destined for priority countries identified in the annual Trafficking-in-Persons
report. (Action: J/TIP)

Recommendation 13: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Resource Management, the Office of Global Partnership
Initiatives, the Office of the Legal Adviser, and the Bureau of International Narcotics and Law
Enforcement Affairs should implement a plan to partner with private sector potential donors or
partners, consistent with existing Department authorities. (Action: J/TIP, in coordination with
RM, S/GPI, L, and INL)

Recommendation 14: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureaus of African Affairs, European and Eurasian Affairs, East Asian and
Pacific Affairs, Near Eastern Affairs, South and Central Asian Affairs, and Western Hemisphere
Affairs, should develop additional performance metrics that capture the prevention or other
related gains from various antitrafficking awareness activities and other related programs or
legislation. (Action: J/TIP, in coordination with AF, EUR, EAP, NEA, SCA, and WHA)

Recommendation 15: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Human Resources, should request, and the Bureau of Human
Resources should fill, the next two new full-time equivalent positions, if granted, with Foreign
Service officers. (Action: J/TIP, in coordination with DGHR)

Recommendation 16: The Office to Monitor and Combat Trafficking in Persons should
request reprogramming of the next vacant position in the reports and political affairs section and
the next vacant position in the public engagement section from Civil Service to Foreign Service,
                                          35
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and the Bureau of Human Resources should approve the request. (Action: J/TIP, in coordination
with DGHR)

Recommendation 17: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Human Resources, should request, and the Bureau of Human
Resources should approve, reprogramming position S8403506 in the reports and political affairs
section from Civil Service to Foreign Service. (Action: J/TIP, in coordination with DGHR)

Recommendation 18: The Office to Combat and Monitor Trafficking in Persons should
conduct a training needs assessment of its staff, develop a training plan, and implement it.
(Action: J/TIP)

Recommendation 19: The Office to Combat and Monitor Trafficking in Persons should
require overdue employees to attend the mandatory Foreign Service Institute leadership and
management courses. (Action: J/TIP)

Recommendation 20: The Office to Monitor and Combat Trafficking in Persons should
eliminate the backlog of delinquent grants closeouts. (Action: J/TIP)

Recommendation 21: The Office to Monitor and Combat Trafficking in Persons should
institute procedures to complete closeout of grants within 30 days of receipt of final financial,
performance, and other reports from the recipient or 120 days after the end of the project period
end date, unless waived by the grants officer, and in compliance with Code of Federal
Regulations closeout procedures with regard to future grants closeouts. (Action: J/TIP)

Recommendation 22: The Office to Monitor and Combat Trafficking in Persons should
amend the language in the standard grant agreement to commit grantees to make their
semiannual performance reports to the Office to Monitor and Combat Trafficking in Persons
available simultaneously to the concerned embassy. (Action: J/TIP)

Recommendation 23: The Bureau of Administration, in coordination with the Office to
Monitor and Combat Trafficking in Persons, should conduct an office space utilization study and
identify space in the Harry S Truman Building or adjacent annexes for relocation of the Office to
Monitor and Combat Trafficking in Persons. (Action: A, in coordination with J/TIP)

Recommendation 24: The Office to Monitor and Combat Trafficking in Persons, in
coordination with the Bureau of Resource Management, should implement a management
controls program for the office and provide an assurance statement addressed to the Secretary of
State concerning the effectiveness of internal controls. (Action: J/TIP, in coordination with RM)

Recommendation 25: The Office to Monitor and Combat Trafficking should implement
Department requirements for performance evaluations and mid-year performance reviews and
implement a plan to hold accountable supervisors who fail to carry them out. (Action: J/TIP)

Recommendation 26: (b) (5)




                                          36
                              SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Recommendation 27: (b) (5)




Recommendation 28: (b) (5)




Recommendation 29: (b) (5)




                                     37
                         SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Office to Monitor and Combat Trafficking in Persons
should regularly invite senior Department staff officers to informal briefings and seminal
meetings and periodically schedule these briefings and meetings in the Harry S Truman building.

Informal Recommendation 2: The Office to Monitor and Combat Trafficking in Persons
should hold regular trafficking-in-persons reporting conferences, merging them with other more
general reporting officer conferences in regional bureaus where the varied responsibilities of the
reporting officers so dictate.

Informal Recommendation 3: The Office to Monitor and Combat Trafficking in Persons
should include the management controls designation in the appropriate employee’s position
description and performance plan.

Informal Recommendation 4: The Office to Monitor and Combat Trafficking in Persons
should review all employee performance plans and assign the appropriate form based on
employee classification.

Informal Recommendation 5: (b) (5)


Informal Recommendation 6: (b) (5)



Informal Recommendation 7: (b) (5)




Informal Recommendation 8: (b) (5)




                                          38
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Principal Officials

                                   Name                    Arrival Date
Director and Ambassador at Large   Luis E. CdeBaca           5/18/2009
Principal Deputy                   Ann Terese Kennelly       9/14/2008
Deputy                             Alison Friedman           9/15/2011
Senior Coordinators:
   Reports and Political Affairs   Mark Taylor              11/16/2003
   International Programs          Marisa Ferri (Acting)     2/13/2012
   Public Engagement               Laura Rundlet             12/5/2010
   Resource Management and
   Planning                        Paula Goode               5/29/2005




                                       39
                           SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED


Acronyms

Department   Department of State

DS           Bureau of Diplomatic Security

FAM          Foreign Affairs Manual

HR/SS        Bureau of Human Resources, Office of Shared Services

INCLE        International Narcotics Control and Law Enforcement

INL/RM       Bureau of International Narcotics and Law Enforcement Affairs,
             Office of Resource Management

IVLP         International Visitor Leadership Program

J/TIP        Office to Monitor and Combat Trafficking in Persons

OIG          Office of Inspector General

PITF         President's Interagency Task Force

RMP          Resource Management and Planning

RPA          Reports and Political Affairs

SAMS         State Assistance Management System

SOI          Statement of Interest

SPOG         Senior Policy Operating Group

TIP          Trafficking in persons

TVPA         Trafficking Victims Protection Act




                         40
             SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
